APPENDIX.-A,FEDERAL DISTRICT'S OPINION

United States District Court
Southern District of Texas

ENTERED
June 25, 2019

Southern District OFPPEistA^adiey, cierk

United States District Court

Bo Daniel Shafer,
Petitioner,
v.
Lorie Davis,
Director, Texas Department of
Criminal Justice, Correctional
Institutions Division,
Respondent.

§
§
§
§
§
§
§
§
§
§

Civil Action H-18-1564

Memorandum and Recommendation
Bo Shafer is serving twenty-six years in prison for continuous
sexual abuse of a child. (D.E. 20-10 at 326.) Shafer filed a petition for
writ of habeas corpus under 28 U.S.C. § 2254. (D.E. 1.) Lorie Davis
has moved for summary judgment. (D.E. 13.) The court recommends
that Davis’s motion for summary judgment be granted and Shafer’s
petition be denied with prejudice.
1. Background
In 2003, Shafer had a daughter (“Daughter”) with his ex-wife
(“Ex-wife”) in a marriage that lasted less than two years. Shafer and
Ex-wife divorced in 2005. Shafer married another woman
(“Stepmother”) in 2009. Ex-wife and Shafer had an ongoing dispute
about Shafer’s romantic partners. In 2009, Ex-wife filed a report
with Child Protective Services (CPS) alleging that Stepmother
slapped Daughter. Nothing came of the CPS investigation.
Stepmother and Shafer divorced in 2012 and re-married in
2014. Shafer and Stepmother raised Stepmother’s two sons, who are
both younger than Daughter. Daughter had overnight visits with
Shafer and his new family. Sometimes Shafer took Daughter and the
boys on overnight trips.
L

Shafer and Ex-wife often fought about Shafer’s visitation
rights. One such dispute arose on the evening of Friday, May 30,
2014, after Daughter’s cheerleading recital. Ex-wife refused Shafer’s
request to have Daughter that weekend. Shafer and Stepmother went
unannounced to the cheerleading recital to pick Daughter up. They
had a confrontation with Ex-wife. Ex-wife alleges that she took
Daughter to a fast-food chain restaurant. There, Daughter told Exwife that Shafer had sexually abused her in 2013.
Around 6:50 PM on May 30, 2014, Ex-wife texted Shafer
“[Daughter] told me what u did to her u will never c her again u
bastard!!!” (D.E. 20-24 at 29.) Shafer did not respond to the text
until Tuesday, June 3, 2014. Id.
Ex-wife immediately took Daughter to an emergency room.
The emergency room doctor referred Daughter to the Texas
Children’s Hospital. Ex-wife took Daughter there the next morning.
A nurse trained to treat sexual assault victims examined Daughter.
The police arranged for a forensic interview. A trained counselor
interviewed Daughter on video.
A grand jury indicted Shafer in 2014 on one count of
continuous sexual abuse of a child. (D.E. 20-10 at 69.)
2. Trial and Procedural Posture
Shafer’s case proceeded to jury trial in the 184th Judicial
District Court in Harris County, Texas. (See D.E. 20-11-D.E. 20-24.)
The States’ witnesses were Ex-wife, Daughter, an expert witness on
child sexual abuse, the forensic interviewer, and medical
professionals who examined Daughter. Shafer’s witnesses were
Stepmother, Stepmother’s son, Daughter’s family doctor, an expert
witness on obstetrics and gynecology, and Shafer’s relatives. Shafer
also testified. The jury found Shafer guilty as charged and sentenced
him to twenty-six years in prison.
Daughter identified Shafer as her abuser. She testified that the
abuse began in 2013, when Shafer was temporarily divorced from
Stepmother and was living with a friend. Daughter and her step
brothers would stay overnight with Shafer at his friend’s house.
2

Daughter alleged that everyone slept together on a bunkbed, with
her step brothers on the top bunk and Shafer and Daughter on the
bottom. Daughter testified that after the two boys fell asleep Shafer
kissed her, fondled her, and penetrated her. She further testified that
the abuse also happened at Shafer’s apartment under similar
circumstances.
Shafer appealed. He argued that the evidence was insufficient
and that his right to a speedy trial was violated. The Fourteenth
Court of Appeals affirmed the district court’s judgment. (D.E. 20-1;
D.E. 20-2; D.E. 20-3.) Shafer did not file a petition for discretionary
review.
Shafer filed an application for state habeas corpus relief
claiming ineffective assistance of counsel. (D.E. 20-28 at 5-38.) The
state habeas court adopted the State’s proposed findings of fact and
conclusions of law. (D.E. 20-28 at 51-59.) The Texas Court of
Criminal Appeals denied Shafer’s application without written order
on findings of the trial court. (D.E. 20-25.)
Shafer filed his federal petition for habeas corpus under 28
U.S.C. § 2254 on May 11, 2018. (D.E. 1.)
3. Standard of Review for § 2254 Cases
Under the Antiterrorism and Effective Death Penalty Act of
1996 (AEDPA), a federal writ of habeas corpus is available for “a
person in custody pursuant to the judgment of a State court only on
the ground that he is in custody in violation of the Constitution or
laws or treaties of the United States.” 28 U.S.C. § 2254(a). The court
cannot grant habeas relief “with respect to any claim that was
adjudicated on the merits in State court proceedings unless the
adjudication of the claim ... resulted in a decision that was contrary
to, or involved an unreasonable application of, clearly, established
Federal law, as determined by” the Supreme Court, or “a decision
that was based on an unreasonable determination of the facts in light
of the evidence presented in the State court proceeding.” 28 U.S.C.
§ 2254(d).

3

The state court’s factual findings are presumed correct, and
the applicant bears the burden to overcome that presumption by
clear and convincing evidence. See 28 U.S.C. § 2254(e)(1). “As long
as there is ‘some indication of the legal basis for the state court’s
denial of relief,’ the district court may infer the state court’s factual
findings even if they were not expressly made.” Ford v. Davis, 910
F.3d 232, 235 (5th Cir. 2018). AEDPA requires the court to defer to
the state habeas court’s express and implicit findings of fact and
conclusions of law. See Young v. Dretke, 356 F.3d 616, 628 (5th Cir.
2004).
4. Analysis
Shafer raises the same ineffective assistance of counsel claims
in his federal petition for habeas relief as he did in his state
application. Because Shafer has exhausted his claims, the court
considers his claims on the merits. See 28 U.S.C. § 2254(b)(1); Busby
v. Dretke, 359 F.3d 708, 723 (5th Cir. 2004).
A. Legal Standards
To prevail on a claim of constitutionally ineffective assistance
of counsel, a petitioner must show (1) “counsel’s performance was
deficient” and (2) “the deficient performance prejudiced the
defense.” Strickland v. Washington, 466 U.S. 668, 687 (1984).
“Surmounting Strickland’s high bar is never an easy task.” Padilla v.
Kentucky, 559 U.S. 356, 371 (2010); Mejia v. Davis, 906 F.3d 307,
315 (5th Cir. 2018). It is “all the more difficult” where, as here, a
defendant challenges a merits denial of his Strickland claim under
AEDPA. Harrington v. Richter, 562 U.S. 86, 105 (2011); Mejia, 906
F.3d at 315. “The standards created by Strickland and § 2254(d) are
both ‘highly deferential,’ and when the two apply in tandem, review
is ‘doubly’ so.” Harrington, 562 U.S. at 105; Mejia, 906 F.3d at 315
(citing Knowles v. Mirzayance, 556 U.S. 111,123 (2009)).

4

(l) Deficient Performance
Deficient performance means that “counsel’s representation
fell below an objective standard of reasonableness.” Strickland, 466
U.S. at 688. In reviewing counsel’s performance, courts must “be
highly deferential,” eliminate the “distorting effects of hindsight,”
and “indulge a strong presumption that counsel’s conduct falls
within the wide range of reasonable professional assistance.” Id. at
689.
“Defense counsel’s strategic choices made after thorough
investigation of law and facts relevant to plausible options are
virtually unchallengeable.” Mejia, 906 F.3d at 316 (5th Cir. 2018)
(internal citations and quotation marks omitted). “A court reviewing
those choices is required not simply to give counsel the benefit of the
doubt, but to affirmatively entertain the range of possible reasons he
may have had for proceeding as he did.” Id. (internal quotation
marks omitted). The Fifth Circuit has “explained that counsel is
afforded particular leeway where a potential strategy carries doubleedged consequences.” Id. (internal quotation marks omitted).
“Unlike a later reviewing court, the attorney observed the relevant
proceedings, knew of materials outside the record, and interacted
with the client, with opposing counsel, and with the judge.”
Harrington, 562 U.S. at 105; Mejia, 906 F.3d at 317. “It is ‘all too
tempting’ to ‘second-guess counsel’s assistance after conviction or
adverse sentence.’” Harrington, 562 U.S. at 105 (citing Strickland,
466 U.S. at 690).
(2) Prejudice
Under Strickland, prejudice is “a reasonable probability that,
but for counsel’s professional errors, the result of the proceeding
would have been different. A reasonable probability is a probability
sufficient to undermine confidence in the outcome.” Strickland, 466
U.S. at 694. It is not enough to show that errors had “some
conceivable effect” on the outcome; rather, counsel’s errors must be
“so serious as to deprive the defendant of a fair trial, a trial whose

5

result is reliable.” Id. at 687. “The likelihood of a different result
must be substantial, not just conceivable.” Harrington, 562 U.S. at
112. A court assessing prejudice “must consider the totality of the
evidence before the judge or jury,” because “a verdict or conclusion
only weakly supported by the record is more likely to have been
affected by errors than one with overwhelming record support.”
Strickland, 466 U.S. at 695-96.
B. Shafer’s claims
Shafer argues that his trial counsel was ineffective for (1) not
questioning or challenging for cause the venire members who were
biased against his defense theory; (2) not objecting to the admission
of Ex-wife’s testimony at trial despite the State’s failure to satisfy the
requirements of Texas Code of Criminal Procedure art. 38.072;
(3) not investigating a neighbor child who would have impeached
Daughter’s testimony; and (4) not objecting to the admission of a
video recording of Daughter’s forensic interview.
(1) Shafer’s Strickland claim as to counsel’s performance
during voir dire is without merit
Shafer argues that his trial counsel was ineffective for failing to
strike or challenge for cause venire members who were biased
towards his defense theory. During voir dire the prosecutor asked
the panel a series of questions that they were to answer numerically,
with “1” being “strongly disagree,” “2” being “disagree,” “3” being
“agree,” and “4” being “strongly agree.” The State’s question relevant
to Shafer’s claim was whether “[cjhildren are easily influenced to
make up allegations of sexual abuse.” (D.E. 20-15 at 64.)
Out of fifty-two venire members, fifteen agreed. Three of those
were empaneled as jurors. Thirty-five disagreed and two strongly
disagreed. Out of those thirty-seven venire members, nine were
empaneled as jurors.
The state habeas court found that a part of Shafer’s defense at
trial was that Ex-wife pressed Daughter to lie. (D.E. 20-28 at 52, If 7.)
Because Shafer argued in his state habeas application that his
counsel should have removed venire members 14, 16, 17, and 23
6

(D.E. 20-28 at 26-27), the state habeas court made express findings
only as to those four jurors:
Venire member 14 gave a “2” indicating they did
not agree with the statement that children are
easily influenced to make up allegations of sexual
abuse.
Venire member 16 gave a “2” indicating that they
did not agree with the statement that children are
easily influenced to make up allegations of sexual
abuse.
Venire member 17 gave a “3” indicating they
agreed with the statement that children are easily
influenced to make up allegations of sexual abuse.
Venire member 23 gave a “3” indicating they
agreed with the statement that children are easily
influenced to make up allegations of sexual abuse.
(D.E. 20-28 at 52-53,1119-12.)
The state habeas court concluded:
The applicant fails to show harm as a result of
trial counsel’s alleged failure to further question
venire members 14, 16, 17, and 23 regarding
whether they could set aside their bias and judge
the applicant on the facts of his case because the
applicant fails to show venire members 14,16,17,
and 23 were unable to judge the applicant on the
facts of his case.
(D.E. 20-28 at 56,11.)
The record supports the state habeas court’s conclusions. As to
the three jurors who agreed with the statement, including venire
members 17 and 23, there was no reason for counsel to strike them.
They agreed that children are easily influenced to make up
allegations of sexual abuse, and therefore agreed with Shafer’s
defensive theory.
The state habeas court’s conclusion—that Shafer failed to show
venire members 14 and 16 were unable to judge him on the facts of
»
his case—applies with equal force to the seven other jurors who gave
similar answers. Federal courts must presume the state habeas

7

court’s findings are true, whether the findings are express or implied.
See 28 U.S.C. § 2254(e)(1); Young v. Dretke, 356 F.3d 616, 629 (5th
Cir. 2004) (federal court must defer to a state habeas court’s implicit
conclusion); see also Ortiz v. Quarterman, 504 F.3d 492, 502 (5th
Cir. 2007) (whether a juror was biased is an issue of fact reserved to
the trial court).
The court’s own review of the record supports the state habeas
court’s findings. The mere fact that venire members did not think a
child could “easily” be influenced to lie is insufficient to show that
they were unconstitutionally biased. Whether children can easily be
influenced to lie about sexual abuse is not the same issue as whether
children can be influenced at all. Counsel could have reasoned that a
juror who does not think a child could “easily” be influenced to lie
about sexual abuse might nevertheless believe that a child can be
influenced to do so. In this respect, the state’s question was not
particularly useful to Shafer’s counsel at voir dire.
Six out of the nine jurors who disagreed that children are
easily influenced nevertheless answered that “a defendant convicted
of sexually abusing a child can be rehabilitated.” (D.E. 20-15 at 1418.) Counsel could have reasoned that empaneling those jurors could
be helpful at sentencing in the event of a conviction.
None of the jury members displayed separate concerns about
their ability to be impartial. During three days of voir dire, thirty
prospective jurors were excused after expressing their inability to be
fair, including fourteen venire members who stated that they already
favored the State because of their own experience of sexual abuse or
for other reasons. (D.E. 20-13 at 48, 75, 77, 78-79, 81-83; D.E. 2014 at 51-52, 54, 95-96,105-09,117-21.)
The jury reached a unanimous guilty verdict. (See D.E. 20-15
at 154-55; D.E. 20-22 at 5-6.) Thus, the three jurors who agreed
that children are “easily influenced” to make up allegations of sexual
abuse still found Shafer guilty.
Shafer has not shown that his trial counsel was
constitutionally deficient for not moving to strike the jurors who

8

disagreed that children are easily influenced to make up allegations
of sexual abuse. Shafer has also not shown that he was harmed by
the makeup of the jury.
Habeas relief is denied.
(2)Shafer’s Strickland claim as to outcry witness testimony is
without merit.
At trial, Ex-wife testified that Daughter first told her about the
abuse after the cheerleading recital at a fast-food restaurant. Shafer
argues that his counsel rendered ineffective assistance by not
objecting to Ex-Wife’s testimony. Shafer argues that an objection
was necessary because her testimony did not meet the requirements
of the hearsay exception under Texas Code of Criminal Procedure
art. 38.072, which concerns hearsay statements made by a child
abuse victim, also known as “outcry” testimony.
The statute provides in relevant part:

f

h

f

A statement [by an outcry witness] is not
inadmissible because of the hearsay rule if:
(1) on or before the 14th day before the date the
proceeding begins, the party intending to offer the
statement:
(A) notifies the adverse party of its
intention to do so;
(B) provides the adverse party with the
name of the witness through whom it
intends to offer the statement; and
(C) provides the adverse party with a
written summary of the statement;
(2) the trial court finds, in a hearing conducted
outside the presence of the jury, that the
statement is reliable based on the time, content,
and circumstances of the statement; and
(3) the child or person with a disability testifies or
is available to testify at the proceeding in court or
in any other manner provided by law.
Tex. Code Crim Proc. Ann. art. 38.072 (West 2014).

9

Shafer argues that his counsel rendered deficient performance
when he did not object to lack of notice or request a hearing
pursuant to art. 38.072.
Shafer claims that Daughter could not have made the outcry
statement at the fast-food restaurant. According to Shafer, Ex-wife
sent him a text message at 6:50 PM accusing him of sexually
assaulting Daughter, but the cheerleading recital lasted until 7:00 or
7:30 PM.
The state habeas court found that the State notified Shafer of
its intent to use Ex-wife as an outcry witness, and the State gave
another notice at the pretrial hearing where Shafer participated in
person. (D.E. 20-28 at 54~55,11127-35.)
The record supports the state court’s findings. The State’s
notice included a summary of Ex-wife’s interview with the State and
a summary of Daughter’s outcry. (D.E. 20-10 at 144-45.)
The state habeas court found that Daughter testified at trial
and was cross-examined about her outcry statement to Ex-wife.
(D.E. 20-28 at 55,1 37.) It also found that Shafer failed to show that
the outcry statement was unreliable or that, had there been a
hearing, the trial court would have found the outcry statement
inadmissible. (D.E. 20-28 at 55,138-39.)
The record supports the state court’s findings. Daughter
testified about her outcry. (D.E. 20-18 at 151-54.) Shafer’s counsel
introduced into the record a picture of Daughter’s cheer recital taken
at 6:35 PM. (D.E. 20-24 at 53.) Shafer testified that everyone was
still at the recital at 6:50 PM. (D.E. 20-20 at 180.) The jury had
access to this evidence in addition to Ex-wife’s outcry testimony.
Shafer has not rebutted the findings of the state habeas court.
Shafer has not shown that he was prejudiced by his counsel’s failure
to request a hearing. (See D.E. 20-28 at 56.) Prejudice requires a
showing that the trial court would have excluded the testimony had
it held the hearing. See Lyon v. Thaler, No. 3-10-CV-0899-B-BD,
2011 WL 3647910, at *2 (N.D. Tex. June 3, 2011) (the petitioner
could not obtain habeas relief for lack of a 38.072 hearing under the

10

theory of ineffective assistance counsel because the petitioner did
not show prejudice.). Shafer’s new assertion that he has GPS data
that placed Ex-wife at the recital when she texted him at best raises a
dispute about where the outcry took place. It does not raise a dispute
about the fact of the outcry or its contents. Shafer has not shown
prejudice.
Shafer’s claim does not merit habeas relief.
(3)Shafer’s Strickland claim about counsels failure to
introduce an impeachment witness is without merit.
Daughter testified about the sex acts that Shafer performed on
her. Shafer alleges that Daughter learned about those acts not from
him but from a girl in Daughter’s neighborhood. He alleges that at
some point the girl was found naked with Daughter. Shafer argues
that trial counsel was ineffective for not presenting testimony from
the girl, who would have impeached Daughter at trial.
The state habeas court found that Shafer failed to identify the
child, offer any proof of what the child would have testified about, or
show that the child would have been available for trial. (D.E. 20-28
at 55, H1I 40-43.) It also found no showing of whether the child
would have testified to Shafer’s benefit or what trial counsel could
have discovered by interviewing her. (D.E. 20-28 at 55, mi 44-45.)
The court’s review of the record supports the state habeas
court’s findings. During the pretrial motions hearing, Shafer’s
counsel stated that he intended to introduce evidence about the
neighbor child. The court ordered counsel to approach the bench
before doing so. (See D.E. 20-12 at 16-17.) At trial, Shafer’s counsel
tried to question Ex-wife about Daughter being found naked with the
neighbor child, but the State raised a hearsay objection, and the
court sustained it. (D.E. 20-16 at 93-96.) Shafer’s counsel
questioned Daughter about whether she was ever caught naked with
the neighbor child, but Daughter denied it. (D.E. 20-18 at 112.)
Shafer testified that Daughter was not allowed to play with the child
once but did not state why. (D.E. 20-20 at 152.)

11

Ineffective assistance of counsel claims grounded on uncalled
witnesses are not favored on federal habeas review. McCoy v.
Cabana, 794 F.2d 177, 183 (5th Cir. 1986) (“[T]he presentation of
testimonial evidence is a matter of trial strategy, and . . . allegations
of what a witness would have testified are largely speculative.”)- “In
order for the appellant to demonstrate the requisite Strickland
prejudice, the appellant must show not only that this testimony
would have been favorable, but also that the witness would have
testified at trial.” Alexander v. McCotter, 775 F.2d 595, 602 (5th Cir.
1989).
Shafer has not shown that his counsel rendered deficient
performance. Neither his petition nor the record contains any
evidence supporting his allegation that Daughter had a sexual
relationship with the neighbor child. Shafer does not state who
found the two children naked. It is uncertain whether Shafer’s
counsel could have interviewed anyone other than the child herself.
There is no proof that the child would have testified at trial.
Further, a substantial part of Daughter’s testimony was about
her having sex with an adult male. Daughter testified that Shafer
made her perform oral sex on him, rubbed his sexual organ against
hers, and penetrated her. (See D.E. 20-18 at 80, 84-86, 89.)
Daughter described, using sensory details, how she felt and what
Shafer’s sexual organ looked like. Id. Sexual acts with a girl her age
could not have prepared Daughter to testify about these details.
Testimony from the neighbor girl would not have been helpful to
Shafer’s defense.
Habeas relief is denied.
(4)Shafer’s Strickland claim as to the video recording of
Daughter’s forensic interview lacks merit.
Shafer claims that his trial counsel was ineffective for not
raising an objection at trial under Texas Code of Criminal Procedure
art. 38.071 about the admissibility of Daughter’s forensic interview.
However, an objection would have been futile because art. 38.071
was inapplicable. The statute provides:

12

This article applies only to a hearing or
proceeding in which the court determines that a
child younger than 13 years of age would be
unavailable to testify in the presence of the
defendant....
Tex. Code Crim. Proc. Ann. art. 38.071 (West 2014).
Daughter testified at trial, and thus the statute was
inapplicable. Therefore, Shafer’s claim that his counsel should have
raised an objection lacks merit. See May v. Dir. TDCJ, No. 9:i3-CV10, 2016 WL 976994, at *4 n.4 (E.D. Tex. Mar. 15, 2016) (denying
habeas relief on similar grounds where the victim testified at trial).
5. Conclusion
The court recommends that Davis’s motion be granted and
Shafer’s petition be denied with prejudice. Any remaining motions
are terminated as moot. Shafer has not met his threshold burden of
demonstrating that the state habeas court’s denial of these claims
constituted an unreasonable application of federal law or an
unreasonable determination of the facts in light of the evidence.
Similarly, Shafer has not made a substantial showing that he was
denied a constitutional right or that it is debatable whether this court
is correct in its ruling. Therefore, the undersigned recommends that
a certificate of appealability not be issued. See Slack v. McDaniel,
529 U.S. 473,484 (2000).
The parties have fourteen days from service of this
memorandum and recommendation to file written objections. See
Rule 8(b) of the Rules Governing Section 2254 Cases; 28 U.S.C.
§ 636(b)(1)(C); Fed. R. Civ. P. 72. Failure to timely file objections will
preclude appellate review of factual findings or legal conclusions,
except for plain error. Thomas v. Am, 474 U.S. 140, 147-49 (1985);
Rodriguez v. Bowen, 857 F.2d 275, 276-77 (5th Cir. 1988).
Signed at Houston, Texas, on June 25, 2019.
/

Peter Rr ly
United States Magistrate Judge
13

APPENDIX-B, FIFTH CURUIT ORDER DENYING COA

)

j

Case: 19-20685

Document: 00515715573

Page: 1

Date Filed: 01/22/2021

tHmtetr States Court of Appeals
for tfje Jftftf) Circuit
No. 19-20685

Bo Daniel Shafer
Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of Criminal Justice,
Correctional Institutions Division,
Respondent—Appellee.

Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:18-CV-1564

ORDER:
A jury convicted Bo Daniel Shafer, Texas prisoner # 1988007, of
continuous sexual abuse of a child and sentenced him to 26 years in prison.
He now seeks a certificate of appealability (COA) to appeal the district
court’s denial of his 28 U.S.C. § 2254 petition challenging his conviction.
Shafer asserts that his trial attorney performed ineffectively by failing to
(1) question venire members who expressed bias, (2) challenge the
admissibility of the outcry testimony, (3) investigate and interview an
impeachment witness, and (4) challenge the admissibility of the video
recording of the forensic interview.

Case: 19-20685

Document: 00515715573

Page: 2

Date Filed: 01/22/2021

No. 19-20685

To obtain a COA, Shafer must make “a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2); Slack v. McDaniel,
529 U.S. 473, 483 (2000). He may satisfy this standard “by demonstrating
that jurists of reason could disagree with the district court’s resolution of his
constitutional claims or that jurists could conclude the issues presented are
adequate to deserve encouragement to proceed further.” Miller-El v.
Cockrell, 537 U.S. 322, 327 (2003). Because the district court rejected his
claims on their merits, Shafer “must demonstrate that reasonable jurists
would find the district court’s assessment of the constitutional claims
debatable or wrong.” Slack, 529 U.S. at 484; see also Miller-El, 537 U.S. at
338. He has not made the requisite showing. Accordingly, Shafer’s motion
for a COA is DENIED. His motions to proceed in forma pauperis and for
the appointment of counsel are likewise DENIED.

James C. Ho
United States Circuit Judge

2

APPENDIX-C, COVID-19 TIME EXTENSION
BY THE U.S. SUPREME COURT

(ORDER LIST: 589 U.S.)

THURSDAY, MARCH 19, 2020

ORDER

In light of the ongoing public health concerns relating to COVID-19, the
following shall apply to cases prior to a ruling on a petition for a writ of certiorari:
IT IS ORDERED that the deadline to file any petition for a writ of certiorari
due on or after the date of this order is extended to 150 days from the date of the
lower court judgment, order denying discretionary review, or order denying a timely
petition for rehearing. See Rules 13.1 and 13.3.
IT IS FURTHER ORDERED that motions for extensions of time pursuant to
Rule 30.4 will ordinarily be granted by the Clerk as a matter of course if the grounds
for the application are difficulties relating to COVID-19 and if the length of the
extension requested is reasonable under the circumstances. Such motions should
indicate whether the opposing party has an objection.
IT IS FURTHER ORDERED that, notwithstanding Rules 15.5 and 15.6, the
Clerk will entertain motions to delay distribution of a petition for writ of certiorari
where the grounds for the motion are that the petitioner needs additional time to file
a reply due to difficulties relating to COVID-19. Such motions will ordinarily be
granted by the Clerk as a matter of course if the length of the extension requested is
reasonable under the circumstances and if the motion is actually received by the
Clerk at least two days prior to the relevant distribution date. Such motions should
indicate whether the opposing party has an objection.

IT IS FURTHER ORDERED that these modifications to the Court’s Rules
and practices do not apply to cases in which certiorari has been granted or a direct
appeal or original action has been set for argument.
These modifications will remain in effect until further order of the Court.

